                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A03110071
                                                                              Il           Page 1 of 1



 ,   We reviewed an allegation of plagiarism in an NSF proposal1.According to the allegation, the
     proposal exhibited stylistic and linguistic shifts that may be associated with plagiarism. We
     reviewed the author's dissertation and published papers and found that the proposal included text
     from these sources. We searched the Internet, reviewed sources cited in the proposal, and
     sampled the literature relating to the topics of the proposal. We found no sources from which text
     was taken other than the author's own work.

     Our analysis indicated that the stylistic and linguistic shifts in the proposal could be attributed to
     the combination of text original to the proposal and text that was written and edited for
     publication. We found no evidence to substantiate the allegation. Accordingly, this case is closed.
